HHS/OIG, Audit -"Review Of Costs Claimed By The New York State Department of Family Assistance, Office of Children and Family Services for Equipment Provided By IBM, and MicroAge Under Phase II of The CONNECTIONS Project,"(A-02-01-02001)
Department
of Health and Human Services
"Review Of Costs Claimed By The New York State Department of Family Assistance, Office of Children and Family Services
for Equipment Provided By IBM, and MicroAge Under Phase II of The CONNECTIONS Project," (A-02-01-02001)
February 12, 2003
Complete
Text of Report is available in PDF format (6.88 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Omnibus Budget Reconciliation Act of 1993 and Public Law 104-193 provided federal financial participation (FFP) for
the planning, development and installation of Statewide Automated Child Welfare Information Systems (SACWIS).  Our
review of SACWIS equipment and related costs provided by two outside contractors, which were claimed for federal reimbursement
by the State of New York during the period March 31, 1996 to September 30, 2000, found problems with the accuracy and reliability
of the States SACWIS inventory management system.  Moreover, we identified SACWIS costs that were ineligible for
FFP. In addition to procedural corrections, we recommended financial adjustments totaling $4.9 million ($3.6 million federal
share).